HHS/OIG-Audit--"Review of the Reasonableness of the Tennessee Consolidated Retirement System Fund Balance as of June 30, 1997, (A-04-98-00118)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Reasonableness of the Tennessee Consolidated Retirement System Fund Balance as of June 30, 1997," (A-04-98-00118)
August 14, 1998
Complete
Text of Report is available in PDF format (644 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the reasonableness of the Tennessee Consolidated Retirement System (TCRS)
fund balance as of June 30, 1997.
Our review disclosed the TCRS contained assets of over $538 million ($49 million Federal share) in excess of actuarially
determined liabilities as of June 30, 1997.
Pension fund assets exceeded actuarially determined liabilities because actual results from TCRS operations significantly
deviated from actuarial estimates. Specifically, returns on investments have exceeded expectations, and salary increases
for participants have been less than expected.
We are recommending the TCRS consider reducing future pension contribution rates charged to Federal programs. Such a reduction
would recognize that assets exceeded actuarially determined liabilities at June 30, 1997. The estimated Federal share of
assets in excess of actuarially determined liabilities was $49 million.
In written comments to the draft report, TCRS officials agreed with our findings and recommendation.